HHS/OIG, Audit -"Review of Medicare Prescription Drug Improvement and Modernization
Act Modifications to Calendar Year 2004 Proposal for HealthAmerica, Incorporated, Harrisburg,
Pennsylvania"(A-03-05-00011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Prescription Drug
Improvement and Modernization Act Modifications to Calendar Year 2004 Proposal for HealthAmerica,
Incorporated, Harrisburg, Pennsylvania" (A-03-05-00011)
December 22, 2005
Complete
Text of Report is available in PDF format (200 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether HealthAmericas use of its Medicare
Prescription Drug, Improvement, and Modernization Act (MMA) payment increase was adequately
supported and allowable under MMA.  HealthAmerica proposed to use the increased capitation
payments provided under MMA to reduce beneficiary premiums, reduce beneficiary cost sharing,
and stabilize beneficiary access to providers.  HealthAmerica reduced the enrolled beneficiary
premium from $58 to $50 and eliminated the $100 beneficiary copayment for inpatient stays.  By
eliminating the beneficiary copayment for inpatient stays, plan officials anticipated that
increased use of inpatient services would eventually result in increased payments to providers.  HealthAmerica
classified this potential increase in payments as stabilizing beneficiary access to providers, but
The Centers for Medicare &  Medicaid Services (CMS) defined stabilizing beneficiary
access to providers as retaining providers in the Medicare Advantage Organizations network.  CMS
instructions do allow cost projection updates as allowable non-MMA modifications.  Therefore,
this report contains no recommendations for corrective action.